HHS/OIG-Audit--"Audit of the Pension Plan at a Terminated Medicare Contractor, Blue Shield of California, (A-07-98-02522)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Contractor, Blue
Shield of California," (A-07-98-02522)
April 1, 1999
Complete Text of Report is available in PDF format
(608 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Blue Shield of California (BSC) was a Medicare Part B contractor until its
contract was terminated in 1996. As of that time BSC had accumulated about $7.6
million in excess pension assets applicable to its Medicare business segment.
The Medicare contract and Federal regulations provide that pension gains attributable
to the Medicare segment of a pension plan at a terminated contractor be credited
to the Medicare program. Accordingly, we have recommended and BSC has agreed
to remit the $7.6 million in excess pension assets to the Medicare program.